               Requirements Changes and Testing Delays
              Have Further Increased the Costs and Delayed
                  the Benefits of the e-Services Project

                                  February 2004

                       Reference Number: 2004-20-036




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          February 17, 2004




       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - Requirements Changes and Testing Delays
                              Have Further Increased the Costs and Delayed the Benefits of
                              the e-Services Project (Audit # 200320023)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       e-Services Release 1.1 Development. The e-Services project will provide a set of
       Web-based business products as incentives to third parties to increase electronic filing,
       in addition to providing electronic customer account management capabilities to all
       businesses, individuals, and other customers. The overall objective of this review was
       to determine whether the Business Systems Modernization Office (BSMO) was
       providing adequate oversight on the e-Services project in the critical areas of business
       case development, requirements management, testing, and transition to support.
       In summary, although the BSMO deployed the initial release of the e-Services system in
       late August 2003, the project continues to experience delays and cost increases due to
       requirements changes and testing environment problems. We identified opportunities
       for improvement in business case development, requirements management, and testing
       oversight.
       Cost estimates and planned schedules included in previous business cases have been
       significantly exceeded throughout the project’s lifecycle. Additionally, business case
       information provided to gain approval for Fiscal Year 2004 funding did not include
       updated cost information available at the time of its preparation.
       Management of system requirements is critical to ensure the developed system meets
       user needs. We reviewed the e-Services system requirements to determine whether
       requirements approved at the end of the design phase were developed and tested. We
       found that numerous requirements were deleted and documentation of changes made
                                             2

to system requirements was not easily traceable from the requirements database to
approval documents.
Several hundred critical defects were identified during acceptance testing. This testing
was one of the last phases of testing and occurred after the system had passed other
testing phases. Additionally, many of these issues required software changes. Defects
identified during both integration and acceptance testing have taken much longer to
resolve than initially planned.
To address these issues, we recommended that the Chief Information Officer (CIO)
require that system requirements be fully developed before project development begins
and that changes after that point meet stringent criteria. Additionally, future
submissions of project information should include up-to-date cost and schedule
information, and a formal lessons learned document should be developed to fully
explore e-Services project issues.
The CIO should require management in the BSMO to ensure that the e-Services
requirements database clearly reflects changes and approval for those changes. To
improve testing, the CIO should require the BSMO to develop incentives to increase
PRIME contractor accountability in the areas of software quality and testing. A process
should also be established to review and accept test plans before allowing the PRIME
contractor to begin testing.
Management’s Response: Management fully agreed with four of our recommendations,
partially agreed to one recommendation, and disagreed with one recommendation. IRS
management plans to take the following actions: establish a process that calls for
gathering requirements, implementing a requirements traceability verification matrix that
maps system requirements or other test components to test cases, and identifying the
verification and validation method for each requirement or test component; and
implement the recommendations from recent Business Systems Modernization program
reviews. IRS management also plans to: continue to submit cost information to the
Office of Management and Budget (OMB) according to OMB requirements, review and
guidance; develop a thorough lessons learned document; and add additional fields to
the requirements database to ensure clear traceability and level of approval indicator.
In addition, the CIO has issued a directive that requires fixed-price contracting for all
systems development and implementation projects. This will require the PRIME
contractor to provide its written assurance at a newly established checkpoint that due
diligence was performed in defining all significant business requirements.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: Management partially agreed with our recommendation to
develop incentives to increase PRIME contractor accountability in the areas of software
quality and testing. Management has included items to increase contractor
accountability in the new Systems Integration Task Order for this fiscal year. However,
they did not include the specific incentive for the contractor for systems that successfully
pass Government acceptance testing with a minimal level of software defects. We
agree with this corrective action because the fixed-priced contract and the written
assurance at the new checkpoint will hold the PRIME contractor accountable for
                                            3

systems that do not pass Government acceptance testing due to software defects,
although it is not specifically defined in the task order.
Management disagreed with our recommendation to establish a process to review and
accept test plans before allowing the PRIME contractor to begin testing. Rather than
implement this recommendation, which would require a formal deliverable-based
solution, management has implemented an approach that gives the development of the
plan, test cases, and other test artifacts to an integrated product team. This allows the
team to complete the plan as the required information becomes available and firm,
sometimes even into the initial days of the testing, while assuring that all stakeholders
approve of and support the plan as completed. While we agree that having an
integrated product team environment is a good approach, we believe that the plan
should be completed and approved before testing starts to allow more effective testing.
If proper planning is implemented, then foreseeable problems can be resolved up front
instead of in the last phases of testing, reducing the number of critical defects. While
we still believe our recommendation is worthwhile, we do not intend to elevate our
disagreement concerning it to the Department of the Treasury for resolution.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
     Requirements Changes and Testing Delays Have Further Increased the Costs and
                    Delayed the Benefits of the e-Services Project




                                                  Table of Contents


Background ............................................................................................... Page 1
The Initial Release of e-Services Was Deployed in August 2003 .............. Page 2
Previous Business Case Estimates Have Been Significantly
Inaccurate.................................................................................................. Page 3
         Recommendations 1 through 3: .................................................... Page 7

Requirements Changes Were Not Easily Traceable ................................. Page 8
         Recommendation 4: ..................................................................... Page 9

Significant Defects Identified During Late Phases of Testing
Took Longer Than Expected to Resolve ................................................... Page 9
         Recommendation 5: ...................................................................... Page 13
         Recommendation 6: ...................................................................... Page 14

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 15
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures ............................................................ Page 18
Appendix V – Management’s Response to the Draft Report ..................... Page 19
    Requirements Changes and Testing Delays Have Further Increased the Costs and
                   Delayed the Benefits of the e-Services Project

                                In the Internal Revenue Service (IRS) Restructuring and
Background
                                Reform Act of 1998 (RRA 98),1 the Congress challenged
                                the IRS to promote its electronic filing programs to the point
                                where 80 percent of all tax returns would be filed
                                electronically by the 2007 Filing Season.2 Moreover, by the
                                2003 Filing Season, most, if not all, returns prepared
                                electronically should be filed electronically as well.
                                Unfortunately, if the IRS’ current systems are not updated
                                and refined, the aforementioned goals will not be met.
                                Therefore, to help meet the Congressional mandate, the IRS
                                created the e-Services project.
                                The e-Services project will provide a set of Web-based
                                business products as incentives to third parties to increase
                                electronic filing. The project focuses on fostering
                                easy-to-use electronic products and services targeted at
                                specific practitioner segments that inform, educate, and
                                provide service to the taxpaying public. In addition, the
                                e-Services project will provide electronic customer account
                                management capabilities to all businesses, individuals, and
                                other customers.
                                The e-Services project is broken down into several
                                releases in 2003 – Releases 1.1, 1.2 and 2.0. Collectively,
                                the releases aim to provide agency-wide registration,
                                authorization, authentication, and application procedures to
                                select Electronic Return Originators (ERO).3 In addition,
                                the EROs will be provided with on-line power of attorney
                                application, Taxpayer Identification Number (TIN)
                                matching,4 transcript delivery, and electronic account




                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  The filing season is the period from January through mid-April when
                                most individual income tax returns are filed.
                                3
                                  EROs originate the electronic submission of income tax returns to the
                                IRS. An ERO may originate the electronic submission of income tax
                                returns that are either prepared by the ERO firm or collected from
                                taxpayers.
                                4
                                  TIN matching allows an authorized payer of income subject to backup
                                withholding to submit lists or a certain number of TIN/name
                                combinations over the Internet, to be matched against IRS records.
                                                                                                Page 1
       Requirements Changes and Testing Delays Have Further Increased the Costs and
                      Delayed the Benefits of the e-Services Project

                                    resolution. Also, the 2003 releases will support the
                                    Modernized e-file (MeF) project.5
                                    We reviewed available documentation and interviewed
                                    PRIME contractor,6 IRS, and Business Systems
                                    Modernization Office (BSMO) executives, managers, and
                                    analysts located at the IRS National Headquarters and the
                                    New Carrollton, Maryland, offices. We performed the audit
                                    from November 2002 through October 2003 in accordance
                                    with Government Auditing Standards. Detailed information
                                    on our audit objective, scope, and methodology is presented
                                    in Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    The IRS deployed the first release of the e-Services system,
The Initial Release of e-Services
                                    Release 1.1, in late August 2003. Although the system
Was Deployed in August 2003
                                    initially encountered various issues, including limitations on
                                    accessibility of the system to the IRS employees who will
                                    be processing activity through the system, the project team
                                    was working with the system users to correct the issues.
                                    Launching the initial release provided the opportunity for
                                    internal and external customers to review, test, and approve
                                    specific e-Services products. This initial release allows tax
                                    professionals the ability to register online and create an
                                    electronic account, and to apply for a Preparer Tax
                                    Identification Number to use in place of their Social
                                    Security Numbers for submitting returns. In addition, this
                                    release will allow for some of the TIN matching capabilities
                                    described earlier.
                                    Although the initial release deployment was not a total
                                    success, problems identified during the early deployment of
                                    this release are currently being resolved and plans to deploy
                                    subsequent releases are continuing. Although the
                                    deployment of the release occurred in late August 2003, the
                                    marketing of the system to external users, primarily tax


                                    5
                                      The MeF project will develop the modernized Web-based platform for
                                    filing approximately 330 IRS forms electronically, beginning with
                                    several corporate and tax-exempt returns. The project serves to
                                    streamline filing processes and reduce the costs associated with the
                                    paper-based IRS.
                                    6
                                      The IRS is working with a PRIME contractor, the Computer Sciences
                                    Corporation, to develop and deploy modernized systems.
                                                                                                 Page 2
     Requirements Changes and Testing Delays Have Further Increased the Costs and
                    Delayed the Benefits of the e-Services Project

                                 practitioners, was delayed until November 2003 to ensure
                                 that any remaining issues were resolved.
                                 Cost estimates and planned schedules included in previous
Previous Business Case
                                 business cases have been significantly exceeded throughout
Estimates Have Been
                                 the project’s lifecycle. Additionally, business case
Significantly Inaccurate
                                 information provided to gain funding approval for Fiscal
                                 Year (FY) 20047 did not include updated cost information
                                 available at the time of its preparation.
                                 Significant schedule delays and cost increases that were
                                 evident during the design phase of the e-Services project
                                 are continuing in the development and implementation
                                 phases
                                 In our earlier e-Services audit report,8 we indicated that
                                 costs through the design phase of the e-Services project had
                                 quadrupled from nearly $4 million to approximately
                                 $17 million, and delays of approximately 9 months had been
                                 experienced. Current development, testing, and deployment
                                 phase cost projections total $119.1 million, which is an
                                 increase of $71.9 million (152 percent) from the baseline
                                 business case projection of $47.2 million. To date, delays
                                 of 14 months have also been experienced.
                                 A key reason for these cost increases and schedule delays
                                 was the significant number of changes made to the
                                 e-Services system after development began. As of
                                 May 2003, we identified 56 separate change requests that
                                 were approved for the e-Services project after it started the
                                 development phase. According to BSMO management,
                                 many of these changes were necessary because of
                                 corresponding changes in the tax law. Although a change
                                 control process has been established to review all proposed
                                 changes, we believe that the process should be more
                                 stringent and better budgeting practices should be employed
                                 to enable more accurate cost estimation for future changes.

                                 7
                                   According to Office of Management and Budget Circular No. A-11
                                 Part 7 (Section 300), the Capital Asset Plan and Business Case Exhibit
                                 300 is a product of the capital programming and/or capital planning and
                                 investment control process and should be developed for all capital
                                 assets.
                                 8
                                   Improvements Are Needed in the Management of the e-Services
                                 Project To Enable Timely Progress Towards Future Goals (Reference
                                 Number 2001-20-144, dated September 2001).
                                                                                                 Page 3
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            Although negotiations are underway to obtain contractor
                            agreement to a firm fixed-price cost for the remaining
                            development efforts, at least one significant item,
                            continuance of transition to support activities, was removed
                            from contract requirements during these negotiations.
                            These requirements will have to be included in a subsequent
                            contract, even though they were included in the original cost
                            estimates for the development tasks. Delaying these
                            requirements could negatively affect efforts already
                            underway to enable the business organization to have the
                            capability to support the system once it is in operation, and
                            will likely result in extending the length of time that the
                            PRIME contractor is paid to maintain the system.
                            The schedule slippage with Release 1.1 of the e-Services
                            system will delay deployment of services, such as
                            registration of EROs, TIN matching, and secure electronic
                            mail (e-mail). In addition, since the MeF project is
                            dependent on the implementation of e-Services, such
                            functionalities as allowing tax professionals and businesses
                            to register and make application to file certain business tax
                            forms electronically have also been affected by delays in
                            deploying the e-Services project.
                            Management Actions: Management plans to improve its
                            budgeting process by increasing the amount of funding
                            allocated to the management reserve account. This account
                            will cover unplanned items, such as changes to the tax laws.
                            In addition, an initiative has been started to better integrate
                            periodic tax law changes into the systems development
                            process.
                            Business case information presented to justify the
                            FY 2004 budget for the e-Services project did not
                            include updated costs
                            The FY 2004 Capital Asset Plan and Business
                            Case (Exhibit 300) documents submitted to the Office of
                            Management and Budget (OMB) were not accurate at the
                            time of submission. These documents, submitted to the
                            OMB in the fall of 2002, did not include updated cost




                                                                                    Page 4
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            information or earned value data9 that was available at the
                            time it was submitted. Specifically, data in the Alternatives
                            Analysis Section were obtained from the e-Services
                            business case dated July 31, 2001, even though earned value
                            data clearly indicated that these estimates were not accurate
                            and would be greatly exceeded.
                            The Exhibit 300 also did not adequately reflect the earned
                            value data showing negative performance in excess of
                            10 percent, which had been ongoing since early 2002.
                            Lastly, the return on investment (ROI)10 calculations did not
                            include costs incurred to design the system. Although the
                            Enterprise Life Cycle (ELC)11 guidance allows these “sunk”
                            costs to be excluded, we believe that they should be
                            disclosed in the ROI calculations in the OMB Exhibit 300
                            submission to provide a more accurate estimate of project
                            costs and benefits.
                            The OMB establishes policy and provides instruction on
                            budget justification and reporting requirements for major
                            acquisitions and major information technology systems or
                            projects. That policy requires that all of the areas of the
                            Exhibit 300 must be part of the agency’s planning and
                            should be updated as soon as the information is known.
                            While the Exhibit 300 documents are officially submitted to
                            the OMB twice yearly, they should be used as management
                            tools within an agency and updated as the information is
                            available.
                            In addition, the OMB requires that if any of the Exhibit 300
                            cost, schedule, or performance variances are a negative
                            10 percent or more, the Exhibit must provide a complete
                            analysis of the reasons for the variances, the corrective
                            actions that will be taken, and the most likely estimate at

                            9
                              Earned value is a management technique that measures actual cost and
                            work accomplished against the budgeted cost and planned work
                            scheduled. Variances between these actual and planned factors are
                            analyzed and provided to management for decision-making.
                            10
                               ROI is a measure that indicates the number of dollars that are saved
                            from each dollar that is spent for the investment of an alternative.
                            11
                               The ELC establishes a set of repeatable processes and a system of
                            review, checkpoints, and milestones that reduce the risks of system
                            development and ensure alignment with the overall business strategy.
                            All IRS and PRIME contractor personnel involved in modernization are
                            required to follow the ELC.
                                                                                           Page 5
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            completion. The earned value system should be used to
                            identify the specific work packages where problems are
                            occurring, and reasons for problems and corrective actions
                            necessary to return the program, as close as feasible, to the
                            current baseline goals should be disclosed. The rationale for
                            the latest estimate at completion should be disclosed and
                            discussed.
                            Although the IRS took corrective actions in response to the
                            negative variances, which eventually resulted in a
                            significant Task Order modification based on the e-Services
                            revision of cost and schedule estimates, it did not detail the
                            need for this action in the FY 2004 Exhibit 300. As a result,
                            updated Net Present Value12 and ROI data, as well as
                            accurate earned value data, were not reflected in the
                            FY 2004 Exhibit 300.
                            The e-Services team indicated that the guidance used to
                            prepare the FY 2004 Exhibit 300 did not clearly define what
                            was required and has since been updated. Additionally,
                            management stated that although earned value data had not
                            been updated in its FY 2004 submission, the cost overruns
                            that e-Services had experienced were clearly disclosed to
                            representatives from the OMB and other oversight
                            organizations in executive briefings.
                            Management Actions: The FY 2005 Exhibit 300
                            submission for the e-Services project was being prepared as
                            we conducted our audit. Management indicated that
                            updated cost and schedule figures were included in this
                            submission; however, ROI data did not include “sunk”
                            costs. Because the submission documents were still in
                            process when we completed our fieldwork, we were unable
                            to review them to ensure latest cost figures were included.
                            Additionally, new guidance has been drafted by the
                            Information Technology Services organization to assist
                            project teams in preparing their Exhibit 300s for the OMB.
                            We reviewed a draft of this guidance, and the September
                            2003 version requires inclusion of ROI figures calculated
                            both with and without “sunk” costs.

                            12
                              A capital budgeting method that considers all cash flows through the
                            entire life cycle of projects, allowing management to identify projects
                            having the greatest monetary return.
                                                                                             Page 6
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            Recommendations

                            To better control cost increases and schedule delays, we
                            recommend that the Chief Information Officer (CIO):
                            1. Establish a more formal discipline to ensure system
                               requirements are established prior to beginning
                               development. Strict criteria should be established to
                               restrict changes once development begins, and any
                               required changes that do not meet the stringent criteria
                               should be made in a subsequent release.
                            Management’s Response: Management agreed to establish
                            a process that calls for the gathering of requirements, a
                            requirements traceability verification matrix, and the
                            identification of the verification and validation method
                            (e.g., test, demonstration, analysis, etc.) for each
                            requirement or test component. They will also implement
                            the recommendations from recent Business Systems
                            Modernization (BSM) program reviews to further improve
                            the requirements management area. These
                            recommendations will be formally tracked and monitored by
                            their executives and include: clearly define business
                            requirements and tightly manage them to control scope;
                            refine the change request process; and develop criteria for
                            project decision-making including impacts and trade-offs.
                            2. Ensure that the most current available project costing
                               information, including accurate earned value data and all
                               costs expended to develop the e-Services system, are
                               included in the FY 2005 Exhibit 300 submission to the
                               OMB.
                            Management’s Response: Management agreed to continue
                            to submit cost information to the OMB according to the
                            OMB’s requirements, review, and guidance.
                            3. Require that a formal lessons learned document be
                               developed to thoroughly explore the issues experienced
                               in the design and development of the e-Services project
                               so that those issues are not experienced in other projects.
                            Management’s Response: On December 15, 2003,
                            management completed a lessons learned document to
                            address the issues identified during Releases 1.1 and 1.2.
                            A thorough lessons learned document will be developed as
                                                                                   Page 7
      Requirements Changes and Testing Delays Have Further Increased the Costs and
                     Delayed the Benefits of the e-Services Project

                                  part of the post checkpoint activities as called for by the
                                  ELC.
                                  Management of system requirements is critical to ensure the
Requirements Changes Were Not
                                  developed system meets user needs. We reviewed the
Easily Traceable
                                  e-Services system requirements to determine whether
                                  requirements approved at the end of the design phase were
                                  developed and tested. We found that numerous
                                  requirements were deleted and documentation of changes
                                  made to system requirements was not easily traceable to the
                                  approval documents or to the requirements database.
                                  We selected a statistically valid sample of 68 system
                                  requirements from Release 1.1 of the e-Services project,
                                  which were approved when the e-Services project moved
                                  from the design phase to the development phase. We
                                  intended to trace these requirements through to testing to
                                  ensure that they passed the first phase of integration testing.
                                  Of the 68 we selected, 25 (37 percent) were deleted from the
                                  requirements as the system was developed. Of these
                                  25 requirements, 20 were originally labeled as “must”
                                  requirements, which indicates that the system has to have
                                  this functionality. An additional 13 system requirements
                                  were delayed to a future release of the e-Services project.
                                  Thus, of the 68 requirements we randomly selected, over
                                  half were not included in Release 1.1 of the e-Services
                                  system.
                                  We attempted to locate documentation of IRS approval of
                                  the deletion or deferral of these requirements. Although
                                  e-Services personnel indicated that the approvals of these
                                  deletions and deferrals were documented in the change
                                  request documents, the requirements database, which tracks
                                  all system requirements, did not clearly identify the change
                                  requests that incorporated the approvals of these deletions
                                  and deferrals. Therefore, the IRS will have difficulty
                                  ensuring that changes made to the requirements database
                                  have been approved. Without requiring a change request
                                  number documenting approval for changes to the
                                  requirements, unauthorized changes could be made. The
                                  resulting system may not meet the users needs.
                                  The IRS indicated that a significant number of additional
                                  requirements were added to the system requirements after
                                  the e-Services project entered the development phase. Thus,
                                                                                           Page 8
      Requirements Changes and Testing Delays Have Further Increased the Costs and
                     Delayed the Benefits of the e-Services Project

                                  numerous changes were made to the requirements approved
                                  at the end of the design phase. Many of these changes were
                                  made in meetings, but the minutes did not clearly reflect
                                  which specific requirements were affected.
                                  A separate audit effort has been initiated to follow up on
                                  these and other system requirements issues. The
                                  recommendation in this report is focused solely on ensuring
                                  that the e-Services project requirements are adequately
                                  addressed.

                                  Recommendation

                                  To ensure that the e-Services project requirements are
                                  effectively addressed, the CIO should:
                                  4. Require the BSMO to ensure that the e-Services
                                     requirements database clearly reflects when a
                                     requirement is changed, and which approval change
                                     request documents the change. Additionally, the change
                                     request document should indicate which specific
                                     requirements are affected by the change.
                                  Management’s Response: Management has prepared a
                                  change request to add additional fields to the requirements
                                  database to ensure clear traceability and level of approval
                                  indicator. As mentioned in management’s response to
                                  Recommendation 1, management will be implementing the
                                  recommendations from recent BSM program reviews to
                                  further improve the requirements management area.
                                  Several hundred critical defects were identified during
Significant Defects Identified
                                  acceptance testing. This testing was one of the last phases
During Late Phases of Testing
                                  of testing and occurred after the system had passed other
Took Longer Than Expected to
                                  phases of testing. Many of these issues required software
Resolve
                                  changes. Although our judgmentally selected sample
                                  indicated that these defects eventually appeared to be
                                  resolved, it took much longer to resolve them than initially
                                  planned.




                                                                                           Page 9
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            There were a significant number of defects identified
                            during acceptance testing, after the system had passed
                            the majority of its integration testing
                            The IRS conducted Systems Acceptance Testing (SAT)13 for
                            the e-Services project after the PRIME contractor had
                            passed the system through quality testing, project testing,
                            and the majority of its system testing. The SAT identified
                            362 Priority 1 and 2 issues – the two highest categories of
                            criticality. Many of the issues identified during testing
                            required actual software changes or corrections before they
                            could be resolved. Of the 61 Priority 1 issues,
                            16 (26 percent) required software corrections, as did
                            160 (53 percent) of the 301 Priority 2 issues. Other issues
                            included processing problems, necessary documentation
                            changes, and configuration issues.
                            Because of the high number of software corrections required
                            as a result of SAT testing, the rigor with which the quality
                            and integration testing before SAT was conducted is
                            questionable. The BSMO works with the PRIME contractor
                            to develop and conduct test activities, but places a heavy
                            reliance on the PRIME contractor to ensure these activities
                            are thorough and complete. Even though the ELC requires
                            that reviews of test plans be conducted, the BSMO does not
                            approve test plans before the tests are conducted and does
                            not review all defects to ensure they have been adequately
                            resolved before allowing the PRIME contractor to move to
                            the next test phase.
                            The BSMO had a close working relationship with the
                            PRIME contractor with respect to the development and
                            testing of the e-Services system. We believe that this close
                            relationship, while a positive attribute in some instances, is
                            a detriment with respect to review and approval of the
                            various testing activities. While the BSMO seems to be
                            closely involved in the development of the test plans, it has
                            not seen the need for a formal process to review and


                            13
                              The SAT verifies and validates the software requirements through
                            documentation, validates life cycle deliverables, validates software and
                            ensures that interfaces with other systems function appropriately, and
                            reviews deliverables for conformance with approved standards and
                            consistency with IRS rules and regulations.
                                                                                            Page 10
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            approve the test plans, and to ensure they are conducted
                            effectively.
                            In the absence of a formal process to review and approve
                            each phase of the test plans, there may not be a clear
                            understanding of the system requirements and the best way
                            to test each requirement. As a result, testing could take
                            longer than initially planned, or there may not be sufficient
                            test cases identified to test each requirement. Failure to test
                            each requirement could result in the system not performing
                            as designed.
                            The e-Services system testing took several months longer
                            than initially planned, partially because there was not a clear
                            understanding of what was required to prove that
                            requirements were met. Additionally, because the
                            e-Services project has used a cost-plus fee contract,14 these
                            delays resulted in increased costs to the IRS. Although we
                            were unable to determine the exact amount of additional
                            costs to the IRS for the delays in testing, the cost projections
                            for development, testing, and deployment have increased
                            nearly $72 million from estimates made prior to beginning
                            the development.
                            The majority of defects identified during integration and
                            acceptance testing were not resolved within planned
                            schedules
                            We selected a judgmental sample of 44 defects and
                            reviewed them for resolution. These defects appeared to be
                            adequately resolved. However, we further examined the
                            entire population of critical and high-priority defects
                            identified during integration and acceptance testing for
                            Release 1.1 of the e-Services project and found that the vast
                            majority of critical and high-priority issues were not




                            14
                              e-Services has used cost-plus-incentive-fee and cost-plus-fixed-fee
                            contracts. Both are cost-reimbursement contracts. The first provides for
                            an initially negotiated fee to be adjusted later by a formula based on the
                            relationship of total allowable costs to total target costs, and the second
                            provides a payment to the contractor of a negotiated fee that is fixed at
                            the inception of the contract.
                                                                                             Page 11
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            resolved within required time periods.15 For integration
                            testing, resolution time periods were 24 hours for critical
                            issues and 3 days for high-priority issues. For acceptance
                            testing, resolution time periods were 5 days for critical
                            issues and 10 days for high-priority issues.
                            Delays in resolving defects resulted in overall testing delays.
                            Originally, acceptance testing was planned to be completed
                            in February 2003. However, this testing was not completed
                            until June 2003. These delays were due in part to the
                            number of defects identified and the length of time to
                            resolve the defects.
                            We believe the PRIME contractor did not respond to and
                            resolve defects identified during integration and acceptance
                            testing within expected time periods because the system was
                            not adequately tested for quality in the initial test phases.
                            Defects identified in the initial phases of system testing
                            were not always effectively resolved when first identified.
                            Defects become more difficult and costly to resolve as the
                            system moves through various phases of testing.
                            Not resolving defects timely becomes critical because the
                            PRIME contractor has been working under a cost-plus fee
                            contract. Thus, delays in resolving defects result in
                            additional costs to the IRS. Additionally, these delays have
                            resulted in implementation delays for the e-Services system.
                            Lastly, the PRIME contractor has no contractual obligation
                            to repair defects once the e-Services system goes into
                            operation. Any repair work accomplished by the PRIME
                            contractor once the system is operational is also performed
                            on a cost-plus fee basis or may be negotiated at the time of
                            discovery of the defect.
                            According to a National Institute of Standards and
                            Technology (NIST) study, it becomes increasingly more
                            expensive to resolve errors the later in the test and/or


                            15
                              Because the IRS and the PRIME contractor do not capture a defect
                            resolution date in their tracking system, we were required to use the
                            defect closure date. As a result, our analysis included some
                            administrative time to close as part of the overall resolution time. The
                            IRS indicated that this may inflate the overall number of defects not
                            resolved timely, but agreed that resolution time for defects was
                            excessive in the testing of Release 1.1 requirements.
                                                                                             Page 12
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            operational cycle that the errors are discovered. The NIST
                            estimated that, relative to resolving an error during the
                            design phase of a project, it is 90 times more expensive
                            to resolve during the system’s testing phase, but up to
                            880 times more expensive to resolve after the system is
                            operational.

                            Recommendations

                            To ensure that testing for the remaining releases of the
                            e-Services system and other BSMO projects is effectively
                            handled, we recommend that the CIO require the BSMO to:
                            5. Develop incentives to increase PRIME contractor
                               accountability in the areas of software quality and
                               testing. These incentives should reward the PRIME
                               contractor for systems that successfully pass
                               Government acceptance testing with a minimal level of
                               software defects.
                            Management’s Response: Management partially agreed
                            with our recommendation. Management agreed that
                            contractor incentives should be applied to the integration
                            and test area. They have included items to increase
                            contractor accountability in the new Systems Integration
                            Task Order for this fiscal year. However, they did not
                            include the specific incentive for the contractor for systems
                            that successfully pass Government acceptance testing with a
                            minimal level of software defects.
                            The CIO issued a directive that requires fixed-price
                            contracting for all systems development and implementation
                            projects. Since fixed-price contracting requires mutually
                            agreed specifications, management is establishing a new
                            checkpoint, at which point these specifications should be
                            developed. Management will required the PRIME
                            contractor to provide its written assurance at this checkpoint
                            that it performed due diligence in defining all significant
                            business requirements.
                            Office of Audit Comment: We agree with management’s
                            corrective action to increase PRIME contractor
                            accountability in the new Systems Integration Task Order
                            for this fiscal year. We believe that the fixed-price
                            contracting and the written assurance at the new checkpoint
                                                                                  Page 13
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                            will hold the PRIME contractor accountable for systems that
                            do not pass Government acceptance testing due to software
                            defects, although it is not specifically defined in the task
                            order.
                            6. Establish a process to review and accept test plans
                               before allowing the PRIME contractor to begin testing.
                            Management’ Response: Management disagreed with this
                            recommendation. Rather than implement this
                            recommendation, which would require a formal deliverable-
                            based solution, management has implemented a combined
                            integration test approach. This approach gives the
                            development of the plan, test cases, and other test artifacts
                            to a combined team, which includes the PRIME contractor,
                            Product Assurance, the BSMO, and business personnel, in
                            an integrated product team environment. This allows the
                            team to complete the plan as the required information
                            becomes available and firm, sometimes even into the initial
                            days of the testing, while assuring that all stakeholders
                            approve of and support the plan as complete.
                            Office of Audit Comment: We agree that having an
                            integrated product team environment to approve of and
                            support the completed plan is a good approach. However,
                            the plan should be completed and approved before testing
                            commences to allow more effective testing. If proper
                            planning is implemented, foreseeable problems can be
                            resolved up front instead of in the last phases of testing,
                            reducing the number of critical defects.




                                                                                 Page 14
       Requirements Changes and Testing Delays Have Further Increased the Costs and
                      Delayed the Benefits of the e-Services Project

                                                                                       Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Business Systems
Modernization Office (BSMO) was providing adequate oversight on the e-Services project in the
critical areas of business case development, requirements management, testing, and transition to
support.

To accomplish this objective, we performed the following reviews and analyses:
I.        Determined if the e-Services project business case was accurate and supportable, and
          provided information to justify continuing project development and maintenance
          throughout its life cycle.
II.       Determined if requirements management activities would ensure that the e-Services
          project met user needs by selecting and reviewing a statistically valid sample of
          68 e-Services Release 1.1 requirements from a population of 851 requirements approved
          when the system moved from the design phase to deployment. We intended to project
          the results of this sample to the population; however, because the requirements changes
          during system development were so extensive, we decided to simply report on the results
          of our sample.
III.      Determined whether adequate controls were in place over Release 1.1 testing activities to
          ensure the system delivered would meet user requirements by selecting and reviewing a
          judgmental sample of 44 out of 611 critical defects identified during testing to determine
          whether they were adequately resolved. We used a judgmental sample because we did
          not plan on projecting the results.
IV.       Determined whether adequate controls were in place over transition to support activities
          to ensure Internal Revenue Service readiness for the deployed system.




                                                                                             Page 15
   Requirements Changes and Testing Delays Have Further Increased the Costs and
                  Delayed the Benefits of the e-Services Project

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Scott A. Macfarlane, Director
Tammy Whitcomb, Audit Manager
Cari Fogle, Acting Audit Manager
Glen Rhoades, Acting Audit Manager
Jimmie Johnson, Senior Auditor
Paul Mitchell, Senior Auditor
Jacqueline Ngyuen, Senior Auditor
Esther Wilson, Senior Auditor
George L. Franklin, Auditor
Suzanne Noland, Auditor




                                                                                         Page 16
   Requirements Changes and Testing Delays Have Further Increased the Costs and
                  Delayed the Benefits of the e-Services Project

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Commissioner, Business Systems Modernization OS:CIO:B
Chief, Information Technology Services OS:CIO:I
Deputy Associate Commissioner, Business Integration OS:CIO:B:BI
Deputy Associate Commissioner, Program Management OS:CIO:B:PM
Deputy Associate Commissioner, Systems Integration OS:CIO:B:SI
Director, Tax Administration Modernization OS:CIO:B:PM:TAM
Acting Director, Portfolio Management Division OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        Associate Commissioner, Business Systems Modernization OS:CIO:B
        Chief, Information Technology Services OS:CIO:I




                                                                               Page 17
    Requirements Changes and Testing Delays Have Further Increased the Costs and
                   Delayed the Benefits of the e-Services Project

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $71.9 million increase on baseline business case
    projection (see page 3).
Methodology Used to Measure the Reported Benefit:
We compared the e-Services Baseline Business Case Milestone 4/5 projections of approximately
$47.2 million (representing current development, testing, and deployment phase cost projections)
with the revised estimates of approximately $119.1 million. There was an increase of
approximately $71.9 million (152 percent).




                                                                                            Page 18
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project

                                                                    Appendix V


               Management’s Response to the Draft Report




                                                                         Page 19
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 20
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 21
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 22
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 23
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 24
Requirements Changes and Testing Delays Have Further Increased the Costs and
               Delayed the Benefits of the e-Services Project




                                                                         Page 25
